No. 20-1751
IN THE

Supreme Court of the United States
_________
SUSAN FISCHER AND JEANETTE SPECK,
Petitioners,
v.
GOVERNOR OF NEW JERSEY; NEW JERSEY EDUCATION
ASSOCIATION; TOWNSHIP OF OCEAN EDUCATION
ASSOCIATION,
Respondents.
_________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit
_________
REPLY BRIEF FOR PETITIONERS
_________
MICHAEL P. LAFFEY
222 Highway 35
Red Bank, NJ 07701
(732) 642-6784

WILLIAM MESSENGER
Counsel of Record
AARON B. SOLEM
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
wlm@nrtw.org
Counsel for Petitioners

TABLE OF CONTENTS
Page
I.

This Case Is a Suitable Vehicle to Clarify
That Governments and Unions Cannot Seize
Payments for Union Speech from Nonmembers
Without Proof They Waived Their First
Amendment Rights ........................................... 1

II.

The Third Circuit’s Decision Conflicts with
Janus ................................................................. 4

II.

The First Question Is Important Because
States and Unions Are Severely Restricting
When Employees Can Exercise Their First
Amendment Rights under Janus ................... 10

CONCLUSION .......................................................... 12

(i)

TABLE OF AUTHORITIES
Page(s)
CASES
Belgau v. Inslee,
975 F.3d 940 (9th Cir. 2020) ...................................9
Cnty. of Riverside v. McLaughlin,
500 U.S. 44 (1991)....................................................3
Cohen v. Cowles Media Co.,
501 U.S. 663 (1991).......................................... 7, 8, 9
Curtis Publ’g Co. v. Butts,
388 U.S. 130 (1967).............................................. 6, 7
Elrod v. Burns,
427 U.S. 347 (1976)................................................ 10
Janus v. AFSCME, Council 31,
138 S. Ct. 2448 (2018).................................... passim
Johnson v. Zerbst,
304 U.S. 458 (1938)..................................................6
Moran v. Burbine,
475 U.S. 412 (1986)..................................................7
CONSTITUTION, STATUTES, AND RULES
U.S. Const. amend. I ......................................... passim
N.J. Stat. Ann. § 52:14-15.9e ........................ 2, 3, 8, 11

(ii)

1
REPLY BRIEF
I.

This Case Is a Suitable Vehicle to Clarify
That Governments and Unions Cannot
Seize Payments for Union Speech from
Nonmembers Without Proof They Waived
Their First Amendment Rights.

This case squarely presents the important question
of whether governments and unions, to lawfully seize
payments for union speech from objecting employees
who are not union members, need clear and compelling evidence those employees waived their First
Amendment rights under Janus v. AFSCME Council
31, 138 S. Ct. 2448 (2018). Petitioners Susan Fischer
and Jeanette Speck each had union dues deducted
from their wages after they resigned their union membership and objected to those deductions. See Pet. 6.
The Third Circuit found the “Defendants do not dispute that Plaintiffs have standing to pursue their
challenges to the membership agreements,” Pet.App.
21 n.15, which restricted when petitioners could stop
dues deductions, and ruled on the merits of their challenges, id. at 24. The lower court held that governments and unions can contractually restrict when employees can stop financially supporting a union without having to prove the employees waived their First
Amendment rights under Janus. Id. at 24 n.18. This
case is therefore a suitable vehicle for resolving the
first question presented.
The State respondent tries to reframe the question
presented by claiming (at 10) that “Petitioners ask
this Court to resolve the constitutionality of the
WDEA [Workplace Democracy Act].” That is not the
first question petitioners present to this Court. Nor is
it the second question, which is whether petitioners

2
“have standing to challenge New Jersey Statutes Annotated Section 52:14-15.9e.” Pet. (i).
Petitioners raise this second question because the
Court’s resolution of the first question would resolve
it as well. See Pet. 24-25. The Third Circuit held petitioners lack standing to challenge N.J. Section 52:1415.9e because its escape period allowed petitioners to
stop paying for union speech earlier than under the
restrictions in their dues deduction assignments.
Pet.App. 16-17. If the Court holds those restrictions
are unenforceable because petitioners did not waive
their First Amendment rights, the Third Circuit’s
standing decision collapses and must be reversed.
The State’s arguments (at 10-18) about procedural
hurdles to the Court ruling on the constitutionality of
N.J. Section 52:14-15.9e are therefore misplaced and
do not provide a reason for the Court to not review the
actual questions this petition presents. Even if the
State’s arguments were relevant, they are meritless.
Contrary to the State’s assertions (at 11), N.J. Section 52:14-15.9e’s restrictions were enforced against
petitioners. They were compelled to pay for NJEA’s
speech over their objections because: (1) their July
2018 requests to stop dues deductions were rejected
by their public employer for being outside the statute’s
10-day notification period; and, (2) their August 2018
requests could not be effectuated until the thirtieth
day after the anniversary of their employment under
the statute. See Pet. 6; Pet.App. 44; C.A. App. 57, ¶¶
5-8; id. at 72, ¶¶ 5-8. But for N.J. Section 52:14-15.9e’s

3
restrictions, petitioners would not have been forced to
subsidize NJEA’s speech in September 2018 against
their will.
Petitioners’ challenge to the statute’s restrictions
also are not moot as the State claims (at 12-14). Petitioners challenged the statute on behalf of putative
class members and timely filed a motion for class certification.1 C.A. App. 48, ¶ 45; id. at 89. The district
court denied the class motion as moot because it
granted the defendants summary judgment. Pet.App.
57. Petitioners appealed to the Third Circuit on behalf
putative class members. See Appellants’ C.A. Br. 1-2.
If this Court reverses the lower courts, Petitioners’
class claims will be justiciable because they relate
back to the filing of the complaint. See Cnty. of Riverside v. McLaughlin, 500 U.S. 44, 51-52 (1991).
Finally, as for the State’s sovereign immunity argument, the Court does not have to reach it to resolve
the questions presented. The Court can hold the
NJEA needs proof of a waiver to restrict employees’
First Amendment rights under Janus, and find that
petitioners have standing to challenge the State’s
statutory restriction on when employees can stop paying for union speech, and leave the State’s sovereign
immunity defense to the lower courts to adjudicate in
the first instance.

1

Respondents do not claim, and nor could they, that petitioners
individual claims for damages against the NJEA are moot.

4
II.

The Third Circuit’s Decision Conflicts
with Janus.

1. The Third Circuit defied this Court’s holding in
Janus, 138 S. Ct. at 2486, by declaring that governments and unions do not need proof of a constitutional
waiver to seize union payments from nonmembers
over their objections. Pet.App. 24 n.18. Indeed, the
lower court’s holding defies common sense. It should
be readily apparent that governments and unions cannot restrict when employees can stop paying for union
speech unless those employees waived their First
Amendment rights under Janus.
NJEA tries to obscure that this case concerns
whether objecting nonmembers can be compelled to
pay for union speech by repeatedly discussing union
members voluntarily paying union dues in return for
membership benefits. NJEA Br. (i), 1, 9, 13, 16. That
is not at issue here. At issue are union dues involuntarily seized from petitioners and others after they resigned their membership in NJEA—and thus became
ineligible for membership benefits—and objected to financially supporting the union.
Petitioners were not voluntary union members even
before their resignations. Before Janus, nonmembers
at their workplace had to pay representation fees
equal to approximately 85% of full union dues.
Pet.App. 39-40. Fischer and Speck both declared that
“[b]ut for the representation fee requirement, I would
not have become or remained a member of the NJEA
or authorized the deduction of union dues from my

5
wages.” C.A. App. 57, ¶ 4; id. at 73 ¶ 4. True to those
words, petitioners resigned from the NJEA and objected to dues deductions shortly after this Court’s decision in Janus freed them from the compulsory fee
requirement. C.A. App. 57, ¶ 5; id. at 73 ¶ 4.
NJEA argues (at 16) that Janus pertains only to employees who never joined a union. That makes no
sense. Janus construed the First Amendment, which
grants rights to all citizens—union members and nonmembers alike. Employees who join a union do not forfeit their First Amendment right to stop subsidizing
that union’s speech in the future. Petitioners and
other employees who choose to exercise their right by
resigning their union membership are as much “nonmembers” under Janus as employees who never
joined in the first place. 138 S. Ct. at 2486. If anything, the affirmative act of resigning and objecting
only makes those employees’ opposition to supporting
the union more apparent. As “nonmembers” under Janus, petitioners and other dissenting employees cannot be made to subsidize union speech absent proof
they waived their First Amendment rights. Id.
NJEA implausibly claims (at 16) that Janus’ waiver
language was meant only “to make clear that the
States cannot presume from nonmembers’ inaction
that they wish to support a union.” (emphasis in original). The claim ignores that the Court in Janus established the evidentiary burden that must be satisfied to prove employees consent to subsidizing a union
by holding that “to be effective, the waiver must be

6
freely given and shown by ‘clear and compelling’ evidence.” Id. (quoting Curtis Publ’g Co. v. Butts, 388
U.S. 130, 145 (1967) (plurality opinion)).
Clear and compelling evidence of a waiver under the
three precedents cited in Janus means proof of an “‘intentional relinquishment or abandonment of a known
right or privilege.” Coll. Sav. Bank v. Florida Prepaid
Postsecondary Ed. Expense Bd., 527 U.S. 666, 682
(1999) (quoting Johnson v. Zerbst, 304 U.S. 458, 464
(1938)); see Curtis Publ’g, 388 U.S. at 143-45 (applying
this standard to an alleged waiver of First Amendment rights). These criteria are sometimes stated as
requiring that a valid waiver must be voluntary,
knowing, and intelligently made and its enforcement
not be against public policy. See Pet. 20. This is the
standard that governments and unions must satisfy
to lawfully extract payments for union speech from
nonmembers like the petitioners.
Respondents do not claim they can satisfy this
standard and prove petitioners waived their First
Amendment right under Janus to stop subsidizing
NJEA’s speech. Among other things, there is no clear
or compelling evidence that petitioners, when they
signed dues deductions authorizations, knew they had
a First Amendment right not to subsidize union
speech or voluntarily and intelligently chose to waive
that constitutional right. Pet. 20-23.
NJEA contends (at 17-18) that proof of a contract
satisfies Janus’ consent requirement. That contention
conflicts with this Court’s repeated use of the term

7
“waiver” in Janus, 138 S. Ct. at 2486. The Court
stated that “[b]y agreeing to pay, nonmembers are
waiving their First Amendment rights,” that “such a
waiver cannot be presumed,” and that “to be effective,
the waiver must be freely given and shown by ‘clear
and compelling’ evidence.” Id. (quoting Curtis Publ’g,
388 at 145). The Court in Janus clearly required proof
of a “waiver,” and not proof of a contract.
The two are not equivalent. The criteria for proving
a waiver of a constitutional right is different and more
exacting than the criteria for proving formation of a
contract. See Pet. 28-30. For example, a key element
to proving a waiver is that an individual must have
known of the constitutional right that he or she allegedly waived—i.e., the individual must have “a full
awareness of both the nature of the right being abandoned and the consequences of the decision to abandon it.’” Moran v. Burbine, 475 U.S. 412, 421 (1986);
see Curtis Publ’g, 388 U.S. at 144-45 (holding that an
individual did not waive his First Amendment right
because he did not know of that right). That is not an
element to proving a contract. Here, even if petitioners’ dues deduction forms amount to a contract, they
do not amount to a waiver because nothing on the
forms prove petitioners knew of their First Amendment right not to support NJEA or intelligently chose
to waive that speech right. See Pet. 20-21.
2. NJEA’s heavy reliance on Cohen v. Cowles Media
Co., 501 U.S. 663 (1991) is misplaced for the reasons
discussed in the petition at 17-19, which NJEA does

8
not try to rebut. Unlike Cohen, this case does not concern an agreement with a private party being enforced
by a law of general applicability, but agreements with
government employers that are enforced under a state
payroll deduction law (N.J. Section 52:14-15.9e). Most
importantly, unlike with the conduct in Cohen, the
state action here—seizures of payments for union
speech from objecting nonmembers—violates the
First Amendment rights absent proof the individuals
waived their rights.
NJEA, like the Third Circuit, claims that in Cohen
“the Court held that the First Amendment is not implicated by a promise that is enforceable under generally applicable principles of state law.” NJEA Br. 14;
see Pet.App. 23. The Court did no such thing. The
Court narrowly held it did not violate the First
Amendment for a state court to enforce a private
agreement with a law of general applicability. Cohen,
501 U.S. at 669. The Court did not broadly declare
that state contract law supersedes the First Amendment. Indeed, such a holding would lack a rational basis. A contract does not render the First Amendment
inapplicable to state actions that otherwise violate an
individual’s speech rights (like compelling an individual to pay for union speech). A valid waiver by an individual of his or her speech rights may have that effect, but a waiver is different from a contract.
The Third Circuit’s misinterpretation of Cohen, like
its misinterpretation of Janus, imperils First Amendment freedoms by substituting a lesser contract analysis for a waiver analysis. The Court should clarify its

9
holdings in Cohen and Janus and firmly establish that
states cannot violate individuals’ First Amendment
rights absent clear and compelling evidence the individuals knowingly, intelligently, and voluntarily
waived their constitutional rights.
3. Contrary to the respondents’ claims, the Court did
not decline to review the first question this petition
presents in Belgau v. Inslee, 975 F.3d 940 (9th Cir.
2020), cert denied, No. 20-1120 (June 21, 2021). Belgau presented the broader question of whether all deductions of union dues from employees, including from
union members, require proof the employees waived
their constitutional rights. See Pet. (i), 12, Belgau, No.
20-1120 (Feb. 11, 2021). According to the respondent
union in Belgau, the “case . . . does not present a question regarding the timeliness of an objection” to paying union dues. Resp. Wash. Fed’n of State Employees’
Br. in Opp. 11, Belgau, No. 20-1120 (May 12, 2021). In
contrast, this petition presents the narrower question
of whether governments and unions need proof of a
waiver “to seize payments for union speech from employees who provide notice they are nonmembers and
object to supporting the union.” Pet. (i) (emphasis
added). This petition focuses on the constitutionality
of restrictions on when dissenting employees can exercise their right to stop subsidizing union speech.
If Janus requires clear and compelling evidence of a
waiver in any circumstance, it is in the circumstance
presented here. The Court should overrule the contrary holdings of four courts of appeals despite their

10
unanimity. The courts are uniformly wrong in construing Janus to not require proof that employees
waived their First Amendment rights for the government to restrict those rights and to seize union payments from objecting nonmembers. See Pet. 14-19.
The Court should not wait for a circuit split to develop
to correct the lower courts’ decision to effectively eliminate Janus’ waiver requirement. Without this requirement, states and unions can, and will, continue
to severely restrict employees’ exercise of their First
Amendment rights under Janus. Given that “[t]he
loss of First Amendment freedoms, for even minimal
periods of time, unquestionably constitutes irreparable injury,” Elrod v. Burns, 427 U.S. 347, 373 (1976),
the Court should correct the lower courts’ failure to
enforce Janus’ waiver requirement now.
III.

The First Question Is Important Because
States and Unions Are Severely Restricting When Employees Can Exercise Their
First Amendment Rights Under Janus.

The vitality of Janus’ waiver requirement is profoundly important because states and unions are undermining the speech rights Janus recognized by
sharply restricting when employees can exercise those
rights. Pet. 2-3, 25-30. New Jersey and eleven other
states amended their dues-deduction laws to require
government employers to enforce restrictions on when
employees can stop paying union dues, and at least
five other states enforce these restrictions under their

11
pre-existing laws. Id. at 2-3. These restrictions typically prohibit employees from stopping dues deductions for 335 to 355 days of each year. Id.
The State’s claim (at 4-5) that New Jersey amended
its dues deduction law one month before Janus for the
salutatory purpose of guaranteeing employees at least
one ten-day opportunity per year to stop dues deductions is as implausible as it is untrue. In the WDEA,
the State rescinded its more lenient policy that permitted employees to stop dues deduction by submitting a revocation notice at any time to be effective January 1 or July 1, and replaced it with the far stricter
requirement that employees may stop dues deductions by submitting a revocation notice during a tenday period that “shall be effective on the 30th day after anniversary of employment.” N.J. Section 52:1415.9e (as amended by P.L. 2018, c.15, § 6, eff. May 18,
2018). The purpose of this “draconian requirement,”
as the district court called it, Pet.App. 52, is clear: to
prohibit New Jersey public employees from freely exercising the First Amendment right the Court would
recognize in Janus.
The Third Circuit’s decision, like that of Seventh,
Ninth, and Tenth Circuits, makes it easy for states
and unions to impose these kinds of restrictions on
employees’ First Amendment rights. The restrictions
simply need to be recited in the fine print of employees’ dues deduction forms. See Pet. 28. The same
would not be true if Janus’ waiver requirement were
enforced. An employee’s right not to subsidize union

12
speech could not be restricted absent clear and compelling evidence the employee was notified of his or
her right and voluntarily and intelligently chose to
waive it. The restrictions also could not be so onerous
as to be against public policy. Id. at 29.
It is important that the Court make clear that states
and unions cannot restrict employees’ First Amendment rights under Janus unless those employees
waive their rights. Employees’ ability to free exercise
their newly recognized right to not subsidize union
speech depends on it.
CONCLUSION
The Court should grant the petition for certiorari.
Respectfully submitted,
MICHAEL P. LAFFEY
222 Highway 35
Red Bank, NJ 07701
(732) 642-6784

WILLIAM MESSENGER
Counsel of Record
AARON B. SOLEM
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION
8001 Braddock Rd.,
Suite 600
Springfield, VA, 22160
(703) 321-8510
wlm@nrtw.org
Counsel for Petitioners

OCTOBER 13, 2021

